No. 20In the

Supreme Court of the United States
BARRY DAMON MALLATERE,
Petitioner,
v.
TOWN OF BOONE, a North Carolina
Municipal Corporation,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Fourth Circuit

PETITION FOR A WRIT OF CERTIORARI

Nathan A. Miller
Counsel of Record
Miller & Johnson, PLLC
756 West King Street
Boone, NC 28607
(828) 264-1125
nathan@millerandjohnsonlaw.com
Counsel for Petitioner

298361

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
The Fourth Circuit affirmed in part, vacated in part,
and remanded the district court’s dismissal over the
Petitioner’s, Barry Damon Mallatre, causes of action.
The Petitioner pled a violation of 42 U.S.C. § 1983,
Malicious Prosecution under North Carolina law and in the
alternative that the Respondent violated the Petitioner’s
Rights under the Fourth Amendment to the United States
Constitution.
Two Questions Presented:
1. Did the Fourth Circuit err in upholding the district
court’s dismissal of the Petitioner’s claim for violation
of 42 U.S.C. § 1983 in finding that the Petitioner did not
properly allege that a policy maker’s decision caused the
Petitioner’s harm?
2. Should the Court re-examine their holding in
Monell v. Dept. of Soc. Servs.,436 U.S. 658 (1978) and
Ashcroft v. Iqbal, 556 U.S. 662 (2009) that municipalities
can’t be held liable for the violations of civil rights by their
employees under the theory of respondeat superior no
matter the policy or custom?

ii
LIST OF PARTIES
The parties below are listed in the caption:
Barry Damon Mallatere, Petitioner
Town of Boone, a North Carolina Municipality,
Respondent

iii
CORPORATE DISCLOSURE STATEMENT
The Petitioner is not a corporation.

iv
RELATED CASES
• Mallatere v. Town of Boone, No. 5:18-cv-00006GCM, U.S. District Court for the Western District
of North Carolina. Judgment entered June 3, 2019.
• Mallatere v. Town of Boone, No. 19-1698, U.S.
Court of Appeals for the Fourth Circuit. Judgment
entered June11, 2020.

v
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
LIST OF PARTIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
CORPORATE DISCLOSURE STATEMENT . . . . . .  iii
RELATED CASES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . vii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . .  viii
OPINION BELOW  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF JURISDICTION  . . . . . . . . . . . . . . . 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED  . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 2
REASON FOR ALLOWANCE OF THE WRIT  . . . . . 4
I.

R e v ie w i s w a r r a nt e d t o r e sol ve a
conf lict concerning the application of
pleading standards set forth in Twombly
and Ashcroft . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

vi
Table of Contents
Page
II. The Court should re-examine their holding
in Monell v. Dept. of Soc. Servs., 436 U.S.
658 (1978) and Ashcroft v. Iqbal, 556 U.S.
662 (2009) that municipalities can’t be held
liable for the violations of civil rights by their
employees under the theory of respondeat
superior no matter the policy or custom . . . . . . . 8
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

vii
TABLE OF APPENDICES
Page
Appendix A — opinion of the united
states court of appeals FOR THE
FOURTH CIRCUIT, FILED JUNE 11, 2020 . . . . 1a
Appendix b — order of the united
states district court for the
western district of north
carolina, statesville division,
dated june 3, 2019 . . . . . . . . . . . . . . . . . . . . . . . . 5a

viii
TABLE OF CITED AUTHORITIES
Page
Cases:
Ashcroft v. Iqbal,
-- U.S. --, 129 S. Ct. 1937, 173 L. Ed. 2d 868
(2009)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Bell Atl. Corp. v. Twombly,
550 U.S. 544, 127 S. Ct. 1955, 167 L. Ed. 2d. 929
(2007)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4, 6, 7
Map v. Ohio,
367 U.S. 643 (1961)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Monell v. Dep’t of Soc. Servs,
436 U.S. 685 (1978) . . . . . . . . . . . . . . . . . . . . 5, 8, 10, 11
Peñalbert-Rosa v. Fortuño-Burset,
621 F.3d 592 (1st Cir. 2011) . . . . . . . . . . . . . . . . . . . . . . 7
The Philadelphia and Reading Railroad
Company, Plaintiff in Error vs. Derby,
621 F.3d 592 (1st Cir. 2011) . . . . . . . . . . . . . . . . . . . . . 11
Statutes and other authorities:
U.S. Const. amend IV  . . . . . . . . . . . . . . . . . . . . . . . . 1, 5, 8
Title 28 U.S.C. § 1331 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Title 28 U.S.C. § 1332(a)  . . . . . . . . . . . . . . . . . . . . . . . . . . 1

ix
Cited Authorities
Page
Title 28 U.S.C. § 1983 . . . . . . . . . . . . . . . . . . . . . . . . . . . 5, 7
Title 42 U.S.C. § 1983 . . . . . . . . . . . . . . . . . . . . .  2, 9, 10, 11

1
OPINION BELOW
The opinion of the United States Court of Appeals
for the Fourth Circuit is an unpublished opinion and is
known by the file number of 19-1698. (A p 1a). The Fourth
Circuit affirmed in part, vacated in part and remanded the
June 3, 2019 decision of the United States District Court
for the Western District of North Carolina. (A p 5a). See
Appendences A and B.
STATEMENT OF JURISDICTION
This Court’s jurisdiction is invoked under 28 U.S.C. §
1331 as a Federal Question and 28 U.S.C. § 1332(a).
The Fourth Circuit’s opinion was rendered on June 11,
2020. The Mandate was filed on July 6, 2020. The deadline
to file a petition for writ of certiorari was extended by the
March 19, 2020 Order number 589 U.S. for this filing by
additional 60 days with the petition for writ of certiorari
due 150 days from when the opinion was rendered.
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
U.S. Const. amend IV
The right of people to be secure in their persons,
houses, papers and effects, against unreasonable searches
and seizures, shall not be violated, and no Warrants shall
issue, but upon probable cause, supported by Oath or
affirmation, and particularly describing the place to be
searched, and the persons or things to be seized.

2
Title 42 United States Code, Section 1983.
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any State or
Territory or the District of Columbia, subjects, or causes
to be subjected, any citizen of the United States or other
person within the jurisdiction thereof to the deprivation
of any rights, privileges, or immunities secured by
the Constitution and laws, shall be liable to the party
injured in an action at law, suit in equity, or other proper
proceeding for redress, except that in any action brought
against a judicial officer for an act or omission taken in
such officer’s judicial capacity, injunctive relief shall not
be granted unless a declaratory decree was violated or
declaratory relief was unavailable. For the purposes of
this section, any Act of Congress applicable exclusively
to the District of Columbia shall be considered to be a
statute of the District of Columbia.
STATEMENT OF THE CASE
The Petitioner, Barry Damon Mallatere, owned a
company known as Appalachian Hospitality Management,
Inc., which leased and managed several nationally branded
hotels in Boone, North Carolina. In 2012, the Petitioner’s
company contracted with a company to convert the indoor
pool heater for the Best Western hotel in Boone, North
Carolina from a propane heating burner to a natural
gas heating burner. The company contracted to do the
conversion, applied for and received a permit from the
Town of Boone’s (hereinafter referred to as “Boone”)
planning and inspection department. After the conversion
was completed, Boone’s planning and inspection
department inspected the work and approved it as being

3
completed pursuant to the relevant building code. On April
16, 2013, Daryl and Shirley Jenkins stayed in room 225,
which is directly above the indoor pool heater room and
ventilation system at the Best Western in Boone, North
Carolina where both passed away. The room was closed for
a number of weeks as the death investigation continued,
but Mr. Mallatere was never informed by Boone’s
employees that the room was unsafe to rent and was told
by the investigating officer that the coroner had no cause
for concern because the coroner believed the Jenkins had
died from dual heart attacks. Mr. Mallatere then hired an
outside company who confirmed that the room was free
from gas leaks. In early June of 2013, one couple stayed in
room 225 and reported no issues or complications. On June
8, 2013, Jeffrey Williams and his mother Jeannie Williams,
stayed at the Best Western in room 225. During the night,
Jeffery Williams was killed by carbon monoxide poisoning
and his mother was severely injured. Approximately a
week before Jeffrey Williams was killed and his mother
severely injured by carbon monoxide poisoning in room
225, the coroner for Watauga County and Boone received
an email from the state lab which stated that the Jenkins
died from carbon monoxide poisoning. The coroner never
opened that email until after Jeffrey Williams’ death
and subsequently never informed Mr. Mallatere of that
fact. Boone investigated Mr. Mallatere through its police
department and determined that no probable cause
existed to charge the Mr. Mallatere with any crime in
regards to the deaths of either of the Jenkins, the death
of Jeffrey Williams or the serious injury of Mr. William’s
mother. Boone’s police department felt political pressure
by the policy makers, including the town council, police
chief and others, and subsequently took the lead detective
off the case and tasked new investigators with finding
probable cause that Mr. Mallatere had committed a crime.

4
No probable cause existed that Mr. Mallatere had
committed a crime. Regardless of that fact, Boone
presented testimony to the grand jury to charge Mr.
Mallatere with three counts of involuntary manslaughter
and one count of assault inflicting serious injury. Boone
knew these charges were false when they presented them.
Boone utilized the turmoil during an election for district
attorney to exploit the grand jury and obtain the charges.
After a new district attorney was elected and the evidence
was evaluated, all charges against Mr. Mallatere were
dismissed. Mr. Mallatere and his company subsequently
lost their contracts to manage the operations of various
hotels.
On January 10, 2018 the Appellant filed their original
Complaint against Appellee. On April 14, 2018 the
Appellant timely filed their Amended Complaint. On April
26, 2018 the Appellee filed a Motion to Dismiss Plaintiff’s
Amended Complaint. More than one year later, on June
3, 2019, the district court issued a final order granting
the Appellee’s Motion to Dismiss Plaintiff’s Amended
Complaint. On June 27, 2019 the Appellant timely appealed
the district court’s final order. On June 11, 2020 the United
States Court of Appeals for the Fourth Circuit issued
their opinion which affirmed in part, vacated in part and
remanded the District Court’s Order.
REASON FOR ALLOWANCE OF THE WRIT
There exists a division, at least between the First
Circuit Court of Appeals and the Fourth Circuit Court
of Appeals, in regards to the heightened pleading
requirements as required by the Supreme Court in the
Twombly and Iqbal decisions. Bell Atl. Corp. v. Twombly,

5
550 U.S. 544, 127 S.Ct. 1955, 167 L.Ed.2d. 929 (2007)
and Ashcroft v. Iqbal, ---- U.S. -----, 129 S.Ct. 1937, 173
L.Ed.2d 868 (2009).
This split among the circuits has led to and will
continue to lead to confusion and unequal interpretations
under the law for litigants.
Further the Petitioner is requesting that the court
re-examine its holdings in Monell and Iqbal as being
inconsistent with Constitutional guarantees made by
and to the citizenry specifically as set forth in U.S.
Constitution amend IV. Monell v. Dep’t of Soc. Servs, 436
U.S. 685 (1978), Id. This inconsistency being the source
of unrest, both past and present, from the citizenry being
unable to seek full redress of violations of their U.S.
Constitution amend IV rights by governmental actors
through the courts.
I.

Review is warranted to resolve a conflict concerning
the application of pleading standards set forth in
Twombly and Ashcroft.

Petitioner is an individual citizen who filed his
complaint alleging that state actors had violated his U.S.
Constitution amend IV rights to be free from prosecution
absent probable cause. Petitioner alleged that certain
policy makers, though he did not specifically name them,
directed the action against him which would entitle him
to a cause of action under 28 U.S.C. § 1983.
The heightened standard of pleading as required in
the Twombly decision requires parties to plead a cause
of action with more than a “formulaic recitation of “policy

6
makers” and “policy” does not provide sufficient factual
allegation to state a plausible claim upon which relief can
be granted as required by Iqbal. Iqbal, 556 U.S. at 678
(quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570
(2007). However, in cases where the names and identities
of those policymakers, and documentation supporting
their actions against those similarly situated to the
Petitioner cannot adequately identify all such actors with
specify unless given the opportunity to conduct discovery.
This heightened pleading standard serves to insulate
such bad actors from prosecution so long as they don’t
voluntarily disclose their actions publically.
The Western District of North Carolina decided in
its June 3, 2019 Order dismissing the Petitioner’s causes
of action that the Petitioner had failed to properly plead
his cause of action because he did not specifically name
the policy maker who created the policy to target the
Petitioner. This imposes an impossible standard on a
litigate, by requiring discovery to be completed by the
litigate prior to filing. Mr. Mallatere pled that he was
investigated by Boone, cleared by Boone and then after
political pressure was placed upon Boone they re-opened
the investigation which ultimately had him prosecuted and
then ultimately exonerated. Mr. Mallatere, as an ordinary
citizen, is not in a position to be in the back room of a small
town police department or town council chamber to learn
which policy maker pushed for the charges against him.
The only way for Mr. Mallatere to obtain this knowledge
is through the discovery process. In his allegations, if
taken as true, it is clear that only a policy maker could
order the Boone police department to change course after
an individual had been cleared by that same department.

7
The Fourth Circuit, through this decision, has shown
that unless the policy maker is specifically named then it
is that Circuit’s interpretation of the Twombly and Iqbal
decisions that the Petitioner’s causes of action must be
dismissed due to the heightened pleading standard. This
is in direct contradiction of the holding by the First Circuit
Court of Appeals in Peñalbert-Rosa v. Fortuño-Burset,
621 F.3d 592 (1st Cir. 2011). In the PeÑalbert-Rosa case,
the plaintiff had lost her job because of her political party
identification when a new governor was elected. She was
fired for that reason, though she didn’t know exactly
who ordered her firing. Id at 593, 594 The District Court
initially dismissed her action but the First Circuit Court
of Appeals reinstated her action against an unnamed
John Doe until, through discovery, she could establish
who wronged her. Id at 597. The court states in the
PeÑalbert-Rosa opinion that “the complaint adequately
alleges – based on the non-conclusory facts already
listed – that someone fired PeÑalbert based upon party
membership. Of course the factual allegations might be
later undermined or countered by affirmative defenses;
but at this stage the complaint adequately asserts a federal
wrong by someone. So while the present complaint does
not justify suit against the defendants actually named, an
avenue for discovery may be open.” Id. at 596. Petitioner
in the case at bar named the actual entity he claims has
wronged him but he is presently unable to name the
individual policy maker. The Plaintiff in the PeÑalbertRosa was allowed to proceed with her allegations even
without knowing the liable party.
It is clear that in the First Circuit Court of Appeals,
the Petitioner’s cause of action for violation of 28 U.S.C.
§ 1983 would have survived a Rule 12(b)(6) motion to

8
dismiss. However, Petitioner’s cause of action did not
survive the Fourth Circuit Court of Appeals. This split
among the circuits must be rectified by the Honorable
Supreme Court to give all litigants a level playing field.
II. The Court should re-examine their holding in
Monell v. Dept. of Soc. Servs., 436 U.S. 658 (1978)
and Ashcroft v. Iqbal, 556 U.S. 662 (2009) that
municipalities can’t be held liable for the violations
of civil rights by their employees under the theory of
respondeat superior no matter the policy or custom.
The constitution was created to set forth a government
where the people would determine how they are governed
and would further ensure that they forever held the
ultimate control. The founders knew that power corrupts
and some of the states refused to ratify the constitution
until the bill of rights were included. Archives.gov/
education/constitution-day/ratification.html. The purpose
of the bill of rights was to constrain the federal government
from seizing certain liberties from the citizens. Id. The
fourth amendment, which is at issue here, states that
“The right of people to be secure in their persons, houses,
papers and effects, against unreasonable searches and
seizures, shall not be violated, and no Warrants shall
issue, but upon probable cause, supported by Oath or
affirmation, and particularly describing the place to be
searched, and the persons or things to be seized.” U.S.
Const. amend IV. The plain reading of the amendment is
that if no probable cause exists, no warrant can be issued.
If a warrant is issued without probable cause, then an
action should be allowed to be maintained against the
government that sought and obtained the warrant by the
aggrieved individual. Otherwise there exists no recourse

9
for damages that an individual suffers for the improper
warrant other than a dismissal.
The bill of rights originally only constrained the
federal government. However, with the passage of the
14th amendment and the incorporation doctrine, portions
of the bill of rights, including the 4th amendment have
been applied to the individual state governments along
with their municipalities by this court. Map v. Ohio,
367 U.S. 643 (1961). This ensures that the people have
recourse through the court system if state actors violate
the freedoms guaranteed to them. By granting access
through the court system, the people are given one of the
two avenues that were originally guaranteed them, the
ballot box and the courts, to protect their freedoms and
to find recourse if said freedoms are violated. This is our
common history and the foundations of our republic which
have served us well for the last 231 years. The problems lie
when the executive branch of the government overreaches
and it’s the court’s duty to reign in the both the federal and
state governments’ executive branches when that occurs.
The United States Congress passed 42 U.S. Code § 1983
which codified a civil action for violations of constitutional
rights. This court has adopted this statute as the doorway
to all lawsuits for violations of various rights including the
4th amendment. 42 U.S. Code § 1983 is more restrictive
than the 4th amendment to the United States Constitution.
This statute requires that the government act under color
of any statute, ordinance, regulation, custom, or usage to
deprive a citizen of their constitutional right. Accordingly,
this statute does not allow actions against the government
if their employees violate a citizen’s rights utilizing their
governmental power and authority to violate a citizen’s

10
rights unless it’s a custom or an order of a policymaker
for that governmental unit. Monell.
The Bill of Rights was adopted by the people along
with the Constitution to form our government. They
are the supreme law of the land, whereas statutes
such as 42 U.S. Code § 1983 are laws passed by the
people’s representatives. Statutes passed by elected
representatives should not be allowed to impose on or
impede the people’s ability to enforce their constitutional
rights.
Our country is presently witnessing what happens
when their ability to redress their rights in a court of law
is restricted. The citizens still have the ability to elect their
leaders who then make decisions on policing at a local level.
This avenue only works for people who live in the voting
district that controls the offending governmental unit.
The mobility of our society and the numerous municipal
police departments make it difficult for large numbers of
people to rely on ballot box to effect change. For those
people the only recourse is through the courts. However,
since the Monell decision, the people have been cut off
from seeking redress through the courts against the
governments that employ people who violate rights under
the color of governmental action. By restricting their
ability to redress grievances through the courts, many
people have taken to the street in massive protests which
have also descended into riots and looting. If provided the
ability to enforce their rights unimpeded through the court
system, this would serve to quell the desires of the people
to take to the streets in violent protests.

11
The courts have long held that employers are
responsible for the actions of their employees while on the
job. The Philadelphia and Reading Railroad Company,
Plaintiff in Error vs. Derby, 55 U.S. 468, 14 How. 468, 14
I.Ed. 502 (1852). This standard has ensured that companies
hire qualified individuals and actively monitor and manage
those individuals. If the companies don’t hire qualified
individuals and actively monitor and manage these
individuals then they are liable for and they pay a higher
cost for such inaction then if they have would have ensured
their employees performed their duties safely. Id at 479.
This standard does not apply to government employees
when it comes to violations of citizens’ constitutional
rights. Ashcroft v. Iqbal, 556 U.S. 662 (2009). A town is not
responsible for the actions of its officers if said officers act
on their own to violate a citizen’s constitutional rights. Id.
This failure to hold governments accountable allows them
to commit violations of a citizen’s constitutional rights with
little to no recourse to the citizen. For if said citizen does
not live in that jurisdiction, but merely works there, then
he can’t vote for the policymakers who ultimately hire
and fire that officer. The citizen in this example has no
recourse, either at the ballot box or in the court system,
unless the town expressly codifies violating people’s rights
a custom or a policy.
Certiorari should be granted by the Supreme
Court to reconsider its decision in Monell, Iqbal and its
interpretation of 42 U.S. Code § 1983 to allow usage to
include civil actions against state actors whose agents
and/or employees violate a citizen’s constitutional rights.
The people never bargained for such a deal and the will
of the people should be re-examined.

12
CONCLUSION
For all the foregoing reasons, Petitioner respectfully
request that the Supreme Court grant review of this
matter.
			

Respectfully submitted,
Nathan A. Miller
Counsel of Record
Miller & Johnson, PLLC
756 West King Street
Boone, NC 28607
(828) 264-1125
nathan@millerandjohnsonlaw.com
Counsel for Petitioner

APPENDIX

1a
Appendix A — Appendix
opinionAof the united
states court of appeals FOR THE
FOURTH CIRCUIT, FILED JUNE 11, 2020
United States Court of Appeals
for the Fourth Circuit
No. 19-1698
BARRY DAMON MALLATERE,
Plaintiff - Appellant,
v.
TOWN OF BOONE, a North Carolina
Municipal Corporation,
Defendant - Appellee.
Appeal from the United States District Court for the
Western District of North Carolina, at Statesville.
(5:18-cv-00006-GCM). Graham C. Mullen, Senior District
Judge.
April 30, 2020, Submitted
June 11, 2020, Decided
Affirmed in part, vacated in part, and remanded by
unpublished per curium opinion.
Before KENNAN, HARRIS and QUATTLEBAUM,
Circuit Judges.

2a
Appendix A
PER CURIAM:
Barry Damon Mallatere appeals the district court’s
order dismissing his amended complaint against the Town
of Boone, a North Carolina municipal corporation, for
failure to state a claim. We have reviewed the record and
find no reversible error in the district court’s dismissal of
Mallatere’s 42 U.S.C. § 1983 (2018) claim. We therefore
affirm that portion of the order for the reasons stated
by the district court. We conclude, however, that the
district court erred by dismissing Mallatere’s malicious
prosecution claim on the basis of governmental immunity;
accordingly, we vacate this portion of the district court’s
order and remand for further proceedings.
We review de novo a district court’s dismissal for
failure to state a claim. Trejo v. Ryman Hosp. Props.,
Inc., 795 F.3d 442, 445-46 (4th Cir. 2015). “To survive a
motion to dismiss, a complaint must contain sufficient
factual matter, accepted as true, to state a claim to relief
that is plausible on its face.” Ashcroft v. Iqbal, 556 U.S.
662, 678, 129 S. Ct. 1937, 173 L. Ed. 2d 868 (2009) (internal
quotation marks omitted). Although a pleading that offers
only “a formulaic recitation of the elements of a cause of
action will not do,” Bell Atl. Corp. v. Twombly, 550 U.S.
544, 555, 127 S. Ct. 1955, 167 L. Ed. 2d 929 (2007), we
“draw[] all reasonable inferences in favor of the plaintiff,”
Elyazidi v. SunTrust Bank, 780 F.3d 227, 233 (4th Cir.
2015) (internal quotation marks omitted). A plaintiff
plausibly suggests a claim is viable by pleading “enough
fact to raise a reasonable expectation that discovery will
reveal evidence” to support the claim at issue. Twombly,
550 U.S. at 556.

3a
Appendix A
A municipality in North Carolina is immune from
“the torts of its officers and employees if the torts are
committed while they are performing a governmental
function.” Strickland v. Hedrick, 194 N.C. App. 1, 669
S.E.2d 61, 67 (N.C. Ct. App. 2008). However, municipalities
can waive their immunity from suit by purchasing liability
insurance. N.C. Gen. Stat. § 160A-485(a) (2018). To
combat a governmental immunity defense, the complaint
must specifically allege that the defendant has waived it.
Fullwood v. Barnes, 250 N.C. App. 31, 792 S.E.2d 545,
550 (N.C. Ct. App. 2016).
In his amended complaint, Mallatere stated that
“[u]pon information and belief,” Boone purchased liability
insurance and waived its immunity. When taking as true
the allegation that Boone had liability insurance, it is
reasonable to infer that Boone has waived its immunity
from suit. See Elyazidi, 780 F.3d at 233. Therefore, we
conclude that the district court erred by dismissing
Mallatere’s malicious prosecution claim as barred by
Boone’s governmental immunity.
We leave the issue of whether Mallatere adequately
stated a claim for malicious prosecution for the district
court to address on remand in the first instance. See
Singleton v. Wulff, 428 U.S. 106, 120, 96 S. Ct. 2868, 49 L.
Ed. 2d 826 (1976) (“It is the general rule, of course, that
a federal appellate court does not consider an issue not
passed upon below.”); Goldfarb v. Mayor & City Council of
Balt., 791 F.3d 500, 515 (4th Cir. 2015) (“The district court
is in a better position to consider the parties’ arguments
in the first instance, which can be presented at length
rather than being discussed in appellate briefs centered
on the issues the district court did decide.”).

4a
Appendix A
Accordingly, we affirm the portion of the district
court’s order dismissing Mallatere’s § 1983 claim, vacate
the portion of the district court’s order dismissing
Mallatere’s malicious prosecution claim based on
governmental immunity, and remand for proceedings
consistent with this opinion.1 We express no opinion on
the merits of Mallatere’s malicious prosecution claim.
We dispense with oral argument because the facts
and legal contentions are adequately presented in the
materials before this court and argument would not aid
the decisional process.
AFFIRMED IN PART,
VACATED IN PART, AND REMANDED

1. Mallatere’s amended complaint also raised a freestanding
constitutional claim as an alternative to his § 1983 claim. The district
court dismissed that claim because § 1983 was the proper avenue
to assert constitutional violations by municipalities; Mallatere does
not appeal that dismissal.

5a
B THE UNITED
APPENDIX B —Appendix
ORDER OF
STATES DISTRICT COURT FOR THE WESTERN
DISTRICT OF NORTH CAROLINA, STATESVILLE
DIVISION, DATED JUNE 3, 2019
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF NORTH
CAROLINA, STATESVILLE DIVISION
CIVIL ACTION NO. 5:18-CV-00006-GCM
BARRY DAMON MALLATERE,
Plaintiff,
v.
TOWN OF BOONE,
Defendant.
ORDER
THIS MATTER COMES before this Court on
Defendant Town of Boone’s (“Defendant”) Motion to
Dismiss Plaintiff’s Amended Complaint. (Doc. No. 13).
Plaintiff Barry Mallatere (“Plaintiff”) responded (Doc.
No. 15) to which Defendant replied. (Doc. No. 16). As such,
this matter is ripe for disposition.
I.

FACTUAL BACKGROUND

Plaintiff at all times relevant to this case managed
and operated several hotels in Boone, North Carolina.

6a
Appendix B
(Compl. ¶ 5). In 2011, Plaintiff served as President of
Appalachian Hospitality Management, Inc. (“Appalachian
Hospitality”). (Id. ¶ 6). In 2011, the pool heater at one of the
hotels operated by Appalachian Hospitality malfunctioned.
(Id. ¶ 8). Without knowledge of Plaintiff, employees
removed a pool heater from another of the Appalachian
Hospitality properties and replaced the malfunctioned
heater. (Id. ¶ 9, 10). The employees responsible for
the change did not get the necessary permits for the
installation of the new pool heater. (Id. ¶ 11).
In 2012, Appalachian Hospitality decided to convert
its heaters and furnaces from propane to natural gas.
(Id. ¶ 12). Appalachian Hospitality contracted with a
third party to do the conversion. (Id. ¶ 13). The third
party inspected the employee installed pool heater and
determined the third party could safely convert the
propane heater to natural gas. (Id. ¶ 15). The third party
applied for and received the necessary permits to complete
the conversion from the Defendant’s Planning and
Inspections Department. (Id. ¶ 16). After the conversion,
Defendant’s inspector confirmed the installation satisfied
the local building code. (Id. ¶ 17).
In April of 2013, Daryl and Shirley Jenkins stayed in
the hotel room directly above the converted pool heater.
(Id. ¶ 18). The Jenkins passed away in the room that night.
(Id. ¶ 19). Defendant’s fire department inspected the room
after the Jenkins’ deaths and determined that nothing was
wrong with the room itself. (Id. ¶ 21). Plaintiff instructed
Appalachian Hospitality to not rent the room pending
further tests. (Id. ¶ 23). An outside contractor tested the
room and found no gas leaks present. (Id. ¶ 24).

7a
Appendix B
In June of 2013, another couple stayed in the same
room in which the Jenkins had died. (Id. ¶ 26). That couple
did not report having any negative experiences. (Id.). The
following week, Jeffrey and Jeanie Williams spent the
night in the same room. (Id. ¶ 27). That night, exhaust
from the pool heater entered the room and caused the
Williams to suffer from carbon monoxide poisoning. (Id.
¶ 28). Jeffrey Williams died, and Jeanie Williams suffered
serious injuries. (Id.).
Plaintiff did not have any knowledge that the room
was susceptible to carbon monoxide poisoning prior
to either the death of Jeffrey Williams or Daryl and
Shirley Jenkins. (Id. ¶ 22, 24, 25, 30). However, Defendant
launched an intensive investigation into the three deaths.
(Id. ¶ 31, 32). The first investigation concluded that no
crime had occurred. (Id. ¶ 33). Defendant, however,
opened a second investigation into the incidents. (Id. ¶ 34).
Plaintiff alleges in his Complaint that Defendant did not
“have any probable cause of [a] crime being committed by
Plaintiff.” (Id. ¶ 35).
Defendant insisted the evidence from the second
investigation be presented to the Grand Jury in hopes
that an indictment would be issued against Plaintiff. (Id.
¶ 36). The Grand Jury indicted Plaintiff on three counts
of involuntary manslaughter and one count of assault
inflicting serious bodily injury. (Id.). Plaintiff alleged that
in support of the indictment, Defendant required two of
Defendant’s employees to appear and testify in front of the
Grand Jury. (Id. ¶ 37). Plaintiff further alleged that these
two witnesses provided false testimony that served as

8a
Appendix B
the basis for the indictment. (Id.). Ultimately, the District
Attorney dropped all charges against Plaintiff. (Id. ¶ 39).
II. STANDARD OF REVIEW
When faced with a motion to dismiss under Rule
12(b)(6) of the Federal Rules of Civil Procedure, the
Court must “accept as true all well-pleaded allegations
and . . .view the complaint in a light most favorable to the
plaintiff.” Mylan Labs, Inc. v. Matkari, 7 F.3d 1130, 1134
(4th Cir. 1993). The Court “assume[s] the[] veracity” of
these factual allegations, and “determine[s] whether they
plausibly give rise to an entitlement to relief.” Ashcroft
v. Iqbal, 556 U.S. 662, 679, 129 S. Ct. 1937, 173 L. Ed. 2d
868 (2009). However, the court “need not accept as true
unwarranted inferences, unreasonable conclusions, or
arguments.” E. Shore Mkts., Inc. v. J.D. Assocs. LLP, 213
F.3d 175, 180 (4th Cir. 2000). Thus, to survive a motion to
dismiss, the plaintiff must include within his complaint
“sufficient factual matter, accepted as true, to ‘state a
claim to relief that is plausible on its face.’” Iqbal, 556 U.S.
at 678 (quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544,
570, 127 S. Ct. 1955, 167 L. Ed. 2d 929 (2007)).
III. DISCUSSION
Plaintiff alleged three different causes of action
against Defendant: (1) Violation of §1983; (2) Malicious
Prosecution; and (3) Violation of Plaintiff ’s Fourth
Amendment Rights pled in the alternative to the first two
causes of action. Defendant moved to dismiss each of the
claims. The Court will discuss each below.

9a
Appendix B
a.

Violation of §1983

Congress passed Section 1983 to provide redress to
private parties for the deprivation of their constitutional
rights under the color of state law. 42 U.S.C. § 1983. In
Monell v. Dep’t of Soc. Servs.1, the Supreme Court held
that Section 1983 applies to municipalities. However,
municipalities cannot be held liable under the theory of
respondeat superior for Section 1983 claims. Monell, 436
U.S. at 694. “Where a plaintiff claims that the municipality
has not directly inflicted an injury, but nonetheless has
caused an employee to do so, rigorous standards of
culpability and causation must be applied to ensure that
the municipality is not held liable solely for the actions of
its employee.” Board of Cty. Comm’rs v. Brown, 520 U.S.
397, 405, 117 S. Ct. 1382, 137 L. Ed. 2d 626 (1997). Rather,
for a municipality to be held liable under Section 1983,
the plaintiff must show that the constitutional deprivation
occurred as a result of the enforcement of a municipal
policy or custom. Id.
Based on Monell and its progeny, the Court must
first determine the alleged constitutional deprivation
at issue. Plaintiff states quite clearly that the alleged
deprivation was a seizure by the Defendant of the Plaintiff
without probable cause in violation of Plaintiff’s Fourth
Amendment rights. (Compl. ¶ 45-46). Thus, the Court will
discuss the Section 1983 claim only with respect to that
alleged violation.

1. 436 U.S. 658, 98 S. Ct. 2018, 56 L. Ed. 2d 611 (1978).

10a
Appendix B
First, the Court notes that the Section 1983 claim
cannot be based upon the testimony of the Defendant’s
employees to the Grand Jury. Allowing the testimony of
the two employees to serve as the basis for liability for
the municipality would give life to a respondeat superior
theory that the Supreme Court has explicitly held not to
apply to Section 1983. Plaintiff agrees that his claim is
not based upon the allegedly false testimony of the two
witnesses. (Doc. No. 15, p. 7) (“Plaintiff’s claims are not
based upon the improper or untruthful testimony of any
grand jury witnesses, those allegations of their testimony
are just smaller acts in the larger causes of action of
Defendant improperly investigating and proceeding with
charges against the Plaintiff when Defendant had no
probable cause.”)
Next, Plaintiff’s Section 1983 claim cannot stand
simply because the Defendant chose to reopen the
investigation into Plaintiff. Plaintiff on several occasions
in both the Complaint and brief noted that the original
investigation determined that probable cause did not
exist. Plaintiff went on to argue that the reopening of
the investigation after an initial determination of no
probable cause contributed to the violation of his Fourth
Amendment rights. This argument has no merit. The
Fourth Amendment does not require probable cause to
investigate a potential crime. As a matter of fact, it is
often the investigation of the crime that gives rise to the
probable cause that justifies the prosecution. To the extent
that Plaintiff claims the reopening of the investigation by
Defendant caused a deprivation of his constitutional rights,
the Court disagrees.

11a
Appendix B
Rather than utilizing the above, a Section 1983 claim
for municipality liability must be based upon an official
policy or custom. Monell, 436 U.S. at 690-91. The Fourth
Circuit identified four possible sources of official policy
or custom that could give rise to municipal liability under
Section 1983: (1) written ordinances and regulations; (2)
affirmative decisions of individual policymaking officials;
(3) omissions by policymaking officials that manifest
deliberate indifference to the rights of the citizens; or (4)
a practice so persistent and widespread and so permanent
and well settled as to constitute a custom or usage with
the force of law. Carter v. Morris, 164 F.3d 215, 218 (4th
Cir. 1999) (quotations and citations omitted).
Here, Plaintiff does not allege a written policy,
omissions by policymaking officials, or a general practice.
Rather, Plaintiff alleges that municipality liability should
attach based upon the affirmative actions of individual
policy makers. The Supreme Court has held that “not
every decision by municipal officers automatically subjects
the municipality to § 1983 liability.” Pembaur v. City of
Cincinnati, 475 U.S. 469, 481-83, 106 S. Ct. 1292, 89 L.
Ed. 2d 452 (1986). Rather, the policy maker must have
“final authority to establish municipal policy with respect
to the action ordered.” Id.
In Plaintiff ’s complaint, Plaintiff makes many
references to “policy makers” without providing specific
job titles, roles, or authority to make final municipal
policy. In Paragraph 43 of the complaint, Plaintiff lists the
“Town Council, Town Manager, Police Chief, Director of
Planning and Inspections and Fire Chief” as the policy

12a
Appendix B
makers responsible for directing employees to seek
criminal charges against Plaintiff. However, Plaintiff fails
to properly plead the role of any of those alleged policy
makers or their authority to set final municipal policy as it
pertains to seeking criminal charges. Rather, Plaintiff in
the next paragraph again refers generally to Defendant’s
“policy makers” by stating that it was their “decision to
reopen the investigation, after it was closed by their lead
detective upon his determination that no probable cause
existed, and to seek indictments without probable cause
[that] constitutes a policy of the Defendant.” This formulaic
recitation of “policy makers” and “policy” does not provide
sufficient factual allegation to state a plausible claim upon
which relief can be granted as require by Iqbal. Iqbal, 556
U.S. at 678 (quoting Bell Atl. Corp. v. Twombly, 550 U.S.
544, 570, 127 S. Ct. 1955, 167 L. Ed. 2d 929 (2007)).
Plaintiff in his brief argued facts that are not found
within the complaint. For instance, in his brief, Plaintiff
states that it was the Police Chief who reopened the
investigation into Plaintiff. (Doc. No. 15, p. 3). However, the
complaint at the cited paragraph refers to a general policy
maker. (Compl. ¶ 34). Additionally, Plaintiff states the
Court can take judicial notice of the size of the Defendant’s
police department, and thus, make assumptions about
the final decision-making authority of certain positions
within that office. (Doc. No. 15, p. 3). However, each of
these requests asks the Court to consider facts that are
not contained within the complaint. The Court will not
accept that invitation. See Pirelli v. Walgreen Co., 631 F.3d
436, 448 (7th Cir. 2011) (“The effort founders, however,
because of the axiomatic rule that a plaintiff may not

13a
Appendix B
amend his complaint in his response brief.”) (internal
citations omitted). Thus, Defendant’s Motion to Dismiss
as it pertains to the Section 1983 claim is GRANTED.
b.

Malicious Prosecution

The second cause of action is one for malicious
prosecution. To state a claim for malicious prosecution, a
plaintiff must allege: “(1) defendant initiated the earlier
proceeding; (2) malice on the part of defendant in doing so;
(3) lack of probable cause for the initiation of the earlier
proceeding; and (4) termination of the earlier proceeding in
favor of the plaintiff.” Strickland v. Hedrick, 194 N.C. App.
1, 17, 669 S.E.2d 61 (2008). Defendant moved to dismiss
arguing that governmental immunity applied to this
claim. The doctrine of governmental immunity holds that
municipalities are immune from suit based upon the torts
of its employees in the exercise of governmental functions
absent waiver of immunity. Herndon v. Barrett, 101 N.C.
App. 636, 640, 400 S.E.2d 767 (2004). The North Carolina
Court of Appeals has held governmental immunity
to apply to cases involving malicious prosecution. See
Strickland, 194 N.C. App. at 16. “Governmental immunity
is absolute unless the [municipality] has consented to [suit]
or otherwise waived its right to immunity.” Fullwood v.
Barnes, 250 N.C. App. 31, 792 S.E.2d 545, 550 (N.C. Ct.
App. 2016) (internal quotations omitted).
The Court agrees with Defendant that the doctrine
of governmental immunity bars Plaintiff ’s claim.
Here, Plaintiff alleged that Defendant authorized the
investigation and prosecution of Plaintiff. These acts

14a
Appendix B
constitute governmental functions for which Defendant
is immune from suit. Strickland, 194 N.C. App. at 16.
Additionally, Plaintiff did not allege that Defendant has
waived its governmental immunity by purchasing liability
insurance, for example. See N.C. Gen. Stat. §160A-485(a)
(“Any city is authorized to waive its immunity from
civil liability in tort by the act of purchasing liability
insurance.”). Thus, because Plaintiff’s allegations only
amount to governmental functions and because Defendant
has not waived governmental immunity, Defendant’s
Motion to Dismiss the malicious prosecution claim must
be GRANTED.
c.

Fourth Amendment Violation

Finally, Plaintiff pled in the alternative a direct
violation of his Fourth Amendment rights. However,
Section 1983 is the appropriate avenue to sue municipality
actors for constitutional violations. While the Supreme
Court in Bivens v. Six Unknown Agents of the Federal
Bureau of Narcotics 2 held that the United States
Constitution provides a direct cause of action against
federal actors, to pursue a direct cause of action against
municipality actors, the appropriate avenue remains
Section 1983. Section 1983 is not a source of substantive
rights; rather, it serves as an avenue for the vindication of
constitutional deprivations against state actors. Lambert
v. Williams, 223 F.3d 257, 260 (4th Cir. 2000) (citations
omitted). Therefore, Plaintiff’s claim is only cognizable via

2. 403 U.S. 388, 91 S. Ct. 1999, 29 L. Ed. 2d 619 (1971).

15a
Appendix B
Section 1983, not as a direct claim. 3 As such, Defendant’s
Motion to Dismiss this claim is GRANTED.
IV. CONCLUSION
For the aforementioned reasons, Defendant’s Motion
to Dismiss is GRANTED. SO ORDERED.
Signed: June 3, 2019
/s/ Graham C. Mullen
Graham C. Mullen
United States District Judge

3. The Court has already dismissed Plaintiff’s Section 1983
based on the discussion above.

